<html>
<title> - REAUTHORIZATION OF THE CORPORATION FOR NATIONAL AND COMMUNITY SERVICE</title>
<body><pre>[Senate Hearing 107-409]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 107-409

 REAUTHORIZATION OF THE CORPORATION FOR NATIONAL AND COMMUNITY SERVICE

=======================================================================

                                HEARING

                                 OF THE

                    COMMITTEE ON HEALTH, EDUCATION,
                          LABOR, AND PENSIONS
                          UNITED STATES SENATE

                      ONE HUNDRED SEVENTH CONGRESS

                             SECOND SESSION

                                   ON

 EXAMINING PROPOSED LEGISLATION AUTHORIZING FUNDS FOR THE INSTITUTE OF 
                     MUSEUM OF LIBRARY SERVICES ACT

                               __________

                             APRIL 9, 2002

                               __________

 Printed for the use of the Committee on Health, Education, Labor, and 
                                Pensions

                               __________

78-867              U.S. GOVERNMENT PRINTING OFFICE
                            WASHINGTON : 2002

____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpr.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001


          COMMITTEE ON HEALTH, EDUCATION, LABOR, AND PENSIONS

               EDWARD M. KENNEDY, Massachusetts, Chairman

CHRISTOPHER J. DODD, Connecticut     JUDD GREGG, New Hampshire
TOM HARKIN, Iowa                     BILL FRIST, Tennessee
BARBARA A. MIKULSKI, Maryland        MICHAEL B. ENZI, Wyoming
JAMES M. JEFFORDS (I), Vermont       TIM HUTCHINSON, Arkansas
JEFF BINGAMAN, New Mexico            JOHN W. WARNER, Virginia
PAUL D. WELLSTONE, Minnesota         CHRISTOPHER S. BOND, Missouri
PATTY MURRAY, Washington             PAT ROBERTS, Kansas
JACK REED, Rhode Island              SUSAN M. COLLINS, Maine
JOHN EDWARDS, North Carolina         JEFF SESSIONS, Alabama
HILLARY RODHAM CLINTON, New York     MIKE DeWINE, Ohio

           J. Michael Myers, Staff Director and Chief Counsel

             Townsend Lange McNitt, Minority Staff Director

                                  (ii)






                            C O N T E N T S

                               __________

                               STATEMENTS

                         Tuesday, April 9, 2002

                                                                   Page
Kennedy, Hon. Edward M., a U.S. Senator from the State of 
  Massachusetts..................................................     1
Gregg, Hon. Judd, a U.S. Senator from the State of New Hampshire.     2
Mikulski, Hon. Barbara A., a U.S. Senator from the State of 
  Maryland.......................................................     3
Lenkowsky, Leslie, Chief Executive Officer, Corporation For 
  National and Community Service.................................     6
    Prepared statement...........................................     9

                                 (iii)

  

 
 REAUTHORIZATION OF THE CORPORATION FOR NATIONAL AND COMMUNITY SERVICE

                              ----------                              


                         TUESDAY, APRIL 9, 2002

                                       U.S. Senate,
       Committee on Health, Education, Labor, and Pensions,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10 o'clock a.m., 
in room SD-430, Dirksen Senate Office Building, Hon. Edward M. 
Kennedy (chairman of the committee) presiding.
    Present: Senators Kennedy, Mikulski, Jeffords, Wellstone, 
and Gregg.

                  Opening Statement of Senator Kennedy

    The Chairman. Good morning. We will come to order.
    Today's hearing is about one of the greatest strengths of 
the American people--our willingness to lend a helping hand to 
our neighbors, our communities, our Nation, and our world.
    We have welcomed and aided refugees. We have joined the 
Peace Corps. We have volunteered at soup kitchens, places of 
worship, community centers, and schools.
    Now, with September 11, that great spirit of volunteerism 
is stirring in Americans once again. We saw ordinary Americans 
risk their lives to help others. And no citizen could 
experience that tragic day without a renewed commitment to 
country, to community, to family.
    That is why today's hearing is so important. It is about 
our Government's programs to provide Americans with ways to 
express our common spirit through voluntary service. Our 
challenge today is to match the demand for service by our 
citizens with meaningful opportunities to make a difference in 
people's lives.
    But in many ways, we are still missing the mark. A recent 
study by Robert Putnam at Harvard University found that 
interest in service has risen in recent months, but only one in 
seven Americans is volunteering regularly--the same level of 
service as a decade ago.
    Clearly, we must do more to make Americans aware of service 
opportunities. A citizen's first encounter when wanting to 
serve should not be a confusing Federal bureaucracy. We should 
look at ways to create easy pathways so that every American can 
serve.
    It is now almost a decade since Congress created the 
Corporation for National Service to enhance opportunities for 
all Americans to contribute to their communities by actively 
engaging in local service programs. Every week, I have the 
privilege of reading with a student in Washington at the Brent 
School in a program that my colleague and friend, Senator 
Jeffords, brought to the District, Everybody Wins. I have seen 
her impressive progress during the last 5 years, and I know 
firsthand that those who engage in community service gain as 
much as they give.
    The Corporation for National Service has greatly expanded 
opportunities to serve for people of all ages. Since 1996, over 
150,000 adults have committed a year of service through 
AmeriCorps. These Corps members have tutored and mentored 
students, rebuilt communities, and improved the lives of people 
of all ages.
    And AmeriCorps is just part of the success story. Nearly 
300,000 talented senior citizens have contributed over 125 
million hours of service, giving back to the communities that 
they helped to build over their lifetimes.
    One of the most impressive projects of all is the Learn and 
Serve program. The Corporation supports programs for more than 
1.5 million students to integrate community service into the 
academic curriculum. According to the Learning in Deed study 
conducted by the Glenn Commission and the Kellogg Foundation 
earlier this year, service learning helps students to develop 
an enduring sense of civic and social responsibility, improves 
student engagement in schools, and can lead to improved 
achievement.
    We know that lifelong habits of service have to begin at an 
early age. Young children who see the positive difference that 
they can make in their communities will want to continue to 
make that difference throughout their lives.
    Since 1995, the appropriations for Learn and Serve have 
remained at $43 million. We need to expand this vital program 
so that every school that wants to begin a program can get the 
technical assistance that it needs.
    I am encouraged that the President has called on Americans 
of every generation to serve their communities. I commend him 
for making service to our communities and to our country a 
priority in his administration.
    The programs created by the Corporation for National 
Service are key avenues of service available to all Americans 
through the State commissions, groups such as City Year or 
Public Allies that are funded directly by the Corporation, 
America's Promise, and the Points of Light Foundation. These 
programs have gained impressive community and corporate support 
and created new opportunities to serve. Let us build on that 
support and take service to the next level.
    I recognize my friend and colleague from New Hampshire, 
Senator Gregg.

                   Opening Statement of Senator Gregg

    Senator Gregg. Thank you, Mr. Chairman.
    I appreciate you holding this hearing, and I want to join 
you in supporting the emphasis which the President has placed 
on service, public service and community service, in his 
administration and bringing forward this concept of the USA 
Freedom Corps.
    The initiative, in my opinion, is exactly right for our 
times. After the events of September 11, I think that as a 
Nation, we appreciate even more the significance of involvement 
with our fellow citizens, and the President is putting his 
imprimatur and his commitment behind dramatically expanding the 
efforts of public service, something that I think is absolutely 
appropriate.
    I hope that as we hold these hearings and look at this 
initiative that we will look beyond what the President has 
proposed in fact. In my opinion, I think there are other 
opportunities out there which could give people, especially in 
our inner-city communities who may not have too many avenues 
and options, more avenues and options through the use of 
community service tied into the rewards and benefits which will 
give them a better opportunity to participate in the American 
dream.
    So I do hope that we will take a look at expanding the 
initiatives put forward and creating an even more dynamic 
effort in the area of drawing people into community service.
    So again I congratulate you, Mr. Chairman, for holding this 
hearing, and I especially congratulate the President and the 
administration and the witnesses today who have been involved 
in this for quite a while for promoting this initiative.
    The Chairman. I would like to turn to my friend and 
colleague, the Senator from Maryland, who has been as strong a 
champion as we have had in this institution in terms of 
voluntary service and she has been enormously involved in the 
shaping of the original legislation and has followed it 
closely, has studied it well, and has been strongly committed 
during a time when the resolve of many others was flagging. We 
always benefit from her guidance, and in the area of voluntary 
service, if we could persuade her to say a word, we would be 
very, very grateful.

                 Opening Statement of Senator Mikulski

    Senator Mikulski. I have been persuaded, Senator Kennedy, 
and I want to thank you for your generous words and also for 
your steadfastness in this issue.
    Dr. Lenkowsky, I really want to welcome you to this 
committee, and I look forward to working with you both as the 
authorizer and then as the appropriator for the Corporation for 
National and Community Service.
    You come with an excellent background, and you come with a 
whole series of recommendations to make based on your long 
history in this issue and your commitment to the issue.
    As you know, and as Senator Kennedy said, I was one of the 
social architects of the original legislation, but I believe we 
should not be wedded to the past. I want to thank President 
Bush for presenting his views to us and his guidance and his 
principles. We want to work with him. What I would like to do 
is work on a bipartisan basis to see how we can take community 
service to the next level and how it can be an important tool 
for the 21st century.
    In order to get there, we want to know what the President's 
vision is. I would like us to be able to review the original 
mission and intent of community service and look at lessons 
learned so that we can look ahead to the challenges that we are 
going to be facing.
    My goals in this hearing are threefold--first, to listen to 
what the President has recommended; second, to look at the 
lessons learned from our national service experience--did we 
accomplish our goals and objectives; what are our evaluation 
plans in place so we can know how well we have done, where we 
have done well, what are the potholes, and what are some of the 
ideas that might just need to be evaluated; and third, to 
really create a road map to guide us in terms of this new 
legislation.
    We have certainly come a long way since 1989 when I 
introduced the National and Community Service Act to establish 
this Corporation and to create a series of demonstration 
projects that involve what we know became AmeriCorps.
    Senator Kennedy and I worked with President Bush I in 1990 
to pass the National Community Service Act to include an 
AmeriCorps like program, providing vouchers for full- and part-
time community service so that it could go to reducing student 
debt or job training. We took it to the next level in 1993 with 
the Community Service Trust Act.
    When we created this legislation, it was not to be another 
social program. It was to be a social invention, hopefully to 
create a social movement on community service. We were deeply 
disturbed in the mid-eighties that young people were losing the 
habits of the heart that made our Nation so great, when 
neighbor helped neighbor. We wanted to create a new ethic 
around community service and instill these habits of the heart, 
and at the same time address the troubling situation of the 
cost of higher education, either by reducing student debt or 
empowering people to help themselves.
    When we created national service, and we created it around 
those national goals. It has been difficult. It has been very 
difficult. What we focused on was the quality, the innovation, 
and whether we could sustain it. And quite frankly, the other 
party--and I am so pleased that the President is engaged--has 
never embraced this. It has been ridiculed. It has been 
diminished, questioning why do we have to pay people to 
volunteer, and so on.
    But with Dr. Lendowsky's leadership and experience, the 
President's vision, and our longstanding experience, I think we 
can really work together and take national service to where it 
needs to go in the 21st century.
    So we look forward to making sure this is not again another 
social program but that we create opportunities of empowerment 
and maybe new ways of social glue in our society.
    So I extend my hand to you in friendship and collegiality 
and look forward to working with you on this.
    The Chairman. Thank you very much, Senator Mikulski.
    We want to welcome Les Lenkowsky to our hearing today. He 
has been an important part of the Corporation since the 
beginning, first as a board member and now CEO. We are 
fortunate to have someone with your expertise and interest. We 
enjoyed having the chance to talk with you yesterday and look 
forward to your testimony and congratulate you on your 
willingness to undertake this very important endeavor.
    Before we begin I have statements from Senators Edwards and 
Clinton.
    [The prepared statements of Senators Edwards and Clinton 
follow:]

                 Prepared Statement of Senator Edwards

    Thanks to Dr. Lenkowsky for coming here today.
    I want to praise the Administration for its support of 
national service. For a long time, Dr. Lenkowsky was one of a 
small group of Republicans who believed in AmeriCorps. It is 
great to see that the program now has strong bipartisan 
support.
    I do want to highlight one serious concern about the 
proposals offered by the Administration today. While the 
support for expanding service opportunities for adults is 
admirable, the Administration has not proposed any new 
opportunities to the kids in high school who want to give back 
to their communities. In fact, if I read the Administration's 
budget correctly (see page 1088), its proposal actually 
slightly cuts the ``Learn and Serve'' programs that serve kids.
    In my view, this is a mistake. If we are going to inspire 
Americans to serve their communities throughout their lives, we 
have to start working with them while they are young.
    I would go even further. Service to the community ought to 
be more than just another afterschool activity, like basketball 
or photography. Service should be a part of every child's 
schooling, as much as math or science or anything else.
    Based on that simple philosophy, I plan to introduce in the 
next week or so the School Service Act of 2002. 1 appreciate 
Senator Kennedy's interest in this proposal and Senator 
Clinton's support. I also want to thank Rep. Harold Ford in the 
House who plans to introduce a companion bill, and especially 
thank all the educators who have worked with us on this 
proposal, particularly at home in North Carolina. I hope we in 
this chamber will be able to work together, Republicans and 
Democrats, to make this bill become law.
    The proposal is very simple: Say to a limited number of 
states and cities-if you will make sure that all of the 
students in your schools engage in high-quality service and 
servicelearning before graduation, we in Washington will 
support your efforts.
    The service can be based in the classroom. It can be based 
in an afterschool program. It can be based in a summer program. 
And it can be directed or supervised by AmeriCorps members who 
are leaders and coordinators.
    All that we ask is that you ensure two things:
    First: real service with real benefits to communities. The 
Corporation's own studies show that a dollar invested in a good 
service effort produces benefits worth over four dollars. We 
need to keep that up.
    Second: we want service that means something to young 
people, service that students reflect on and talk about with 
each other. We want kids seeing these experiences not as 
another chore, but as an exciting initiation into long lives of 
active citizenship. And we know service is oftenjust that. Kids 
who serve grow up to volunteer more and to vote more throughout 
their lives.
    Finally, our bill will hold these programs to high 
standards and require measurable success.
    Let me stress: I don't think we should require any state or 
city to do anything. Nor should this program operate 
nationwide. My proposal is that for the select group of states 
and school districts that are ready, we ought to make sure 
every child has the opportunity and the responsibility to 
engage in service. Here in Congress, it is our responsibility 
to give those opportunities for service to our young people. 
When we do, our country will be richly rewarded in the years 
and decades to come.
    Thank you.

                 Prepared Statement of Senator Clinton

    Thank you Mr. Chairman for convening this hearing on this 
critical topic--national and community service in our nation. 
September 11 taught us some amazing lessons about the 
generosity of the human spirit and the depths to which our 
fellow citizens are willing to go when we are in need. I was 
profoundly moved by what I witnessed in New York and I know 
that we have a unique opportunity today to build upon that 
generosity and sense of community by providing more 
opportunities for all Americans to give back.
    When we first envisioned AmeriCorps back in 1993, few of us 
could have imagined what it has become today. More than 50,000 
energetic people volunteer each year--a total of 250,000 since 
my husband signed the bill into law. These special people who 
devote years of their lives to helping others are driven to do 
because early in their lives--through the influence of parents 
and teachers--they are taught the value of service.
    That is why I support a terrific bill that my colleague, 
Senator Edwards, has developed. This bill, the School Service 
Act, will promote universal community service among high school 
students, which will promote a lifetime of service among all of 
our young people.
    One particular group of young people that I am eager to 
involve in community service activities are young people coming 
out of the foster care system in service opportunities. These 
children have often witnessed firsthand the difficulties of 
living in poverty and in abusive domestic situations. Their 
compassion could be particularly meaningful to others facing 
similar situations and I look forward to working with all of 
you to increase opportunities for this population to serve.
    I applaud President Bush's commitment to national service 
by expanding the number of volunteers by 25,000. This is a 
tremendously worthwhile goal, which will impact hundreds of 
thousands more Americans through the spillover effects of 
community service. I look forward to working with you Dr. 
Lenkowsky and with all of my colleagues on the HELP Committee 
on achieving this goal. Thank you.

    STATEMENT OF LESLIE LENKOWSKY, CHIEF EXECUTIVE OFFICER, 
         CORPORATION FOR NATIONAL AND COMMUNITY SERVICE

    Mr. Lenkowsky. Thank you very much, Mr. Chairman, Senator 
Gregg, Senator Mikulski.
    I am privileged to come before you this morning to present 
President Bush's principles for a new Citizen Service Act that 
would improve and enhance the programs of the Corporation for 
National and Community Service.
    Since the Corporation was created in 1993, it has 
accomplished a great deal, but to better help build a culture 
of citizenship, service, and responsibility, we must use the 
lessons of the past, as Senator Mikulski has just indicated, to 
strengthen the quality of the Corporation's efforts and assist 
more Americans to serve their neighbors, their communities, and 
their country.
    In my prepared testimony which I would like to submit for 
the record, I have outlined what the Corporation has achieved 
since it began and what we have learned about where we need to 
improve. This morning, President Bush is announcing the 
principles that we believe should guide reforms of the 
Corporation's programs, AmeriCorps, Senior Corps, and Learn and 
Serve America. I would like to submit these to you as well and 
briefly summarize them.
    The President's principles have four major objectives. The 
first is to support and encourage greater engagement of 
citizens in volunteering. In AmeriCorps, we would propose to do 
this by statutorily requiring all members to focus on 
generating additional unstipended volunteers; improving the 
education award, such as by eliminating tax on it and allowing 
it to be transferred to younger family members or even 2Ts; 
testing new approaches that might give would-be members a wider 
range of places in which they could serve; and encouraging 
growth and greater private backing for successful AmeriCorps 
programs such as Teach for America and City Year.
    We would also reduce the age and income restrictions that 
disqualify too many older Americans from Senior Corps, create a 
special program to connect veterans with youth, and eliminate 
barriers to participation in all of our programs by people with 
disabilities.
    Finally, we would urge Congress to amend the Higher 
Education Act to require every college and university to 
increase over several years the percentage of Federal work-
study funds devoted to community service to 50 percent as part 
of a more comprehensive effort to enhance service learning 
among all of our young people.
    Our second goal is to make Federal support for service more 
responsive to State and local needs. We would like to give 
States more authority to select AmeriCorps programs than they 
have today, as well as greater flexibility, within reasonable 
limits, to allocate funds for administrative uses.
    We want to see communities have more leeway for developing 
Senior Corps programs that will appeal to the baby boomers who 
are on the verge of retirement, including by offering 
transferable Silver Scholarships to those who have made 
substantial commitments of time.
    And we propose to consolidate and modify Learn and Serve 
programs so that they can better address barriers to high-
quality service learning programs, such as the lack of teacher 
training.
    Without jeopardizing our hard-won management improvements 
which produced our second consecutive clean audit opinion for 
fiscal year 2001, we believe that with appropriate authority, 
we can do more to simplify administrative requirements and ease 
the burden of our programs on State and local communities as 
well as the charities at which our members serve.
    At the same time, the third objective of our principles is 
to make the Corporation's programs more accountable and 
effective. We propose a statutory requirement that all 
AmeriCorps, Senior Corps, and Learn and Serve programs 
establish performance goals, develop corrective plans if they 
fail to meet these goals, and lose part or all of their Federal 
support if corrections are not made.
    We would also like to write into law the successful 
agreement we have had with Congress to contain the average cost 
of AmeriCorps.
    One reason the agreement has been successful is that the 
Corporation was able to develop some lower-cost, high-impact 
ways of serving in AmeriCorps, such as the education- award-
only version, in which our members receive no Federal living 
allowance.
    We would like the authority to move these from the test 
phase, where we are limited in how many positions we can 
support, into the general AmeriCorps mix. We are also 
interested in using the National Civilian Community Corps 
model, which is now wholly funded by the Federal Government, as 
a basis for partnerships with public agencies and nonprofits 
that would primarily work on public safety, public health, and 
emergency response efforts.
    Last but not least, our fourth goal is to provide greater 
assistance to secular and faith-based community organizations. 
This has always been a priority for the Corporation's programs, 
especially VISTA. By making some modest changes, such as in the 
rules governing how its members are selected and placed, we 
believe we can make VISTA even more helpful to groups on the 
front lines of helping the poor and needy. With proper 
authority, we can also do a better job of ensuring that all the 
Corporation's programs do what VISTA has long been committed to 
doing--helping nonprofits mobilize the resources, including 
modern technology, that they need to be sustainable and 
effective.
    The President's budget for fiscal year 2003 proposes 
increasing AmeriCorps by 25,000 members and Senior Corps by 
100,000. We request that this committee authorize the 
appropriations necessary to reach these ambitious targets. 
While our existing legislation, together with the management 
improvements we have made in recent years, would enable the 
Corporation to achieve these goals, we believe that the changes 
the President is calling for will produce more volunteers and 
more help for nonprofit organizations for each Government 
dollar spent.
    We greatly appreciate the interest that members of this 
committee have had in the Corporation's programs over the years 
and know that many of you have ideas about what needs to be 
done to improve them. We look forward to working with you to 
translate these ideas and the principles the President has 
articulated today into legislation that will put the 
Corporation on a strong bipartisan footing for its second 
decade and beyond.
    The time for doing so could not be better. Since September 
11, Americans of all ages and backgrounds have even more come 
to recognize that this is a country worth not only defending 
but serving. According to one recent survey, 81 percent of 
young adults cutting across all demographic groups and 
political affiliations say they would like to have a chance for 
a full year of national and community service. Since the 
President's State of the Union Address in which he called for 
Americans to serve and created the USA Freedom Corps, 
applications for AmeriCorps are twice what they were a year 
earlier. Interest in Senior Corps has risen even more. And a 
blue ribbon committee chaired by former Senator John Glenn has 
just called upon the Nation's schools to invest more heavily in 
service learning.
    By improving and enhancing its programs, this committee 
will enable the Corporation to respond more effectively to a 
public that wants to serve; and if, together with our Volunteer 
Centers, United Ways, and many other private groups, we are 
successful, we will do a better job of helping people in need 
and, perhaps more importantly, strengthen the spirit of civic 
responsibility on which the health of American democracy rests.
    Thank you very much. I would be glad to take your questions 
at this point.
    [The prepared statement of Mr. Lenkowsky follows:]

                 Prepared Statement of Leslie Lenkowsky

    Mr. Chairman and Members of the Committee, Thank you for the 
opportunity to discuss the views of the Administration concerning the 
reauthorization of national and community service legislation--the 
National and Community Service Act of 1990 and the Domestic Volunteer 
Service Act of 1973.
    This is my first public opportunity to appear before, you, Mr. 
Chairman and the other Members of the Committee, since you confirmed my 
nomination by President Bush to be the Chief Executive Officer of the 
Corporation for National and Community Service. Prior to that, this 
Committee confirmed me to three consecutive appointments to the 
Corporation's Board of Directors and to the Board of its predecessor 
organization. Thank you for these opportunities.
    Most importantly, this is an extraordinary moment in the history of 
our country and the Agency I head. Since the terrible events of 
September 11th, we have seen expressions of patriotism in tile United 
States unlike any that I can remember in my lifetime. At a tragically 
high price, all of us have again come to realize how precious our 
freedoms are and why it is important for all of us to accept the 
responsibilities of citizenship in order to preserve them.
    To make this a lasting change in our civic consciousness, President 
Bush has called on all Americans to give at least two years of their 
lives in service to their country. As the President has said, we can 
build a stronger nation and fight terrorism by making a commitment to 
service in our own communities, whether that be tutoring a child, 
volunteering at a hospital, or participating in a neighborhood crime 
watch.
    Most of our nation's civic work is being done without the aid of 
the Federal Government. That is as it should be, since the Federal 
Government is not the source of this civic spirit. At the same time, 
the Federal Government can do a better job in helping to support and 
encourage it where I can.
    Therefore, through an Executive Order, the President established 
the USA Freedom Corps, which will build on existing Federal programs 
that engage citizens in service, as well as create new opportunities 
related to homeland security and meeting other critical needs.
    The USA Freedom Corps initially will have three major components, 
which will be administered separately but coordinated through a White 
House council. It includes an improved and enhanced set of programs 
supported through the Corporation for National and Community Service, 
which is the direct concern of this committee. Specifically, the 
Administration has proposed providing additional community-based 
service opportunities and leveraging thousands of additional volunteers 
by adding 25,000 new AmeriCorps members and 100,000 new volunteers in 
senior service, and by removing current barriers to service, AmeriCorps 
and Senior Corps participants who assist nonprofit organizations and 
public agencies in the areas of public safety, public health, and 
disaster relief and preparedness will work closely with Citizen Corps, 
through the coordinating efforts of the USA Freedom Corps Council.
    The Corporation's programs--AmeriCorps, Senior Corps, and Learn and 
Serve America--will support the President's call to service by helping 
to provide full-time and part-time opportunities for Americans to serve 
at all stages of their lives, from when they are elementary-school 
students through their retirement years. We will also work closely with 
our nation's many worthwhile charities, not only in helping them 
accomplish their missions, including providing security for our 
homeland, but also in helping them recruit and manage additional 
volunteers.
    As part of the announcement of the USA Freedom Corps, the 
Administration indicated its intent to work closely with the Congress 
on a bill that will reform and extend the Corporation's programs and 
authorities. The Administration's reforms for a Citizen Service Act of 
2002 were outlined, in the USA Freedom Corp policy book released on 
January 30.
    For the Corporation to play the role envisioned by the President 
under the USA Freedom Corps, we need to make AmeriCorps, Senior Corps, 
and Learn and Serve America more responsive to state and local needs, 
more accountable for results, more adept at leveraging private 
resources, and more effective in assisting hard-pressed charities, 
including faith-based and community organizations. I'd like to describe 
these three programs briefly and explain why we are proposing reforms.

                               AMERICORPS

    AmeriCorps engages 50,000 Americans in intensive, results-oriented 
service each year, AmeriCorps members mobilize, manage, and train 
volunteers to assist nonprofit groups and public agencies across the 
country. The members, and the volunteers they help organize, teach 
children to read, make neighborhoods safer, and help build affordable 
homes for low-income families, among many other activities. When a new 
class of members enrolls this fall, more than 250,000 Americans 18 and 
older will have participated in AmeriCorps since it was created in 1993 
through amendments to the National and Community Service Act of 1990.
    There are three main components to AmeriCorps: 1) AmeriCorps--State 
and National, which provides grants to states and national charitable 
organizations to support members in local charities and nonprofit 
groups across the country; 2) AmeriCorps--VISTA (Volunteers in Service 
to America), which focuses on helping poor people overcome poverty and 
assisting community and faith-based organizations in meeting the needs 
of low-income neighborhoods; and 3) AmeriCorps--NCCC (National Civilian 
Community Corps), a ten-month, full-time residential service program 
for men and women that combines the best practices of civilian service 
with the best aspects of military service, including leadership and 
team building.
    The President proposes to increase the annual level of 50,000 
AmeriCorps members to 75,OO0 in 2003. The new AmeriCorps participants 
will generate at least 75,000 additional volunteers to work with the 
nation's nonprofits.
    As the Congress contemplates this proposed increase, I think it is 
important to explain how AmeriCorps functions, and how it can be 
improved.
    First, most AmeriCorps members serve with nonprofit and community 
organizations like Habitat for Humanity, Teach for America, the 
American Red Cross, Boys and Girls Clubs, neighborhood watch 
organizations, community action agencies, local faith-based 
organizations, and many others. In the majority of cases, these 
organizations, not the Federal Government, select and manage the 
members who serve with them, The members assist those organizations in 
meeting community needs.
    Second, AmariCorps is decentralized--that is, it gives a 
significant amount of power and control to states and local 
authorities. State commissions on national and community service, led 
by citizen volunteers appointed by Governors, select or nominate most 
of the projects in which AmeriCorps members serve, based on their 
assessment of local needs.
    Third, AmeriCorps, has both full-time and part-time members. 
Slightly more than half of the individuals in these programs serve full 
time and receive a modest living allowance in order to be able to 
serve. The other half serve part time and generally do not receive any 
living allowance from Corporation resources. Upon successful completion 
of service, both types of AmeriCorps members receive an education 
award, available for seven years, to help finance college or pay back 
student loans. At the end of this year, the first AmeriCorps class will 
have used about 72 percent of the education award amounts that were 
earned.
    Fourth, the Federal Government, states, local communities and the 
private sector share funding for AmeriCorps members. There are various 
statutory provisions that mandate such cost sharing.
    Since it was created in 1993, AmeriCorps has compiled an impressive 
list of accomplishments. Members have helped recruit and supervise 
additional volunteers for nonprofit organizations; they have tutored 
and mentored disadvantaged children; they have established or expanded 
neighborhood safety programs; and they have helped communities rebuild 
after dozens of natural disasters and emergencies--including the 
September 11th terrorist attacks--in more than 30 states. Although 
evaluation studies are not always of the highest quality, project 
reports have consistently shown that AmeriCorps members are meeting 
community needs in education, health and human services, public safety, 
and the environment.
    At the same time, the program has had its share of challenges and 
problems over the last several years. Many in Congress have documented 
those challenges and problems and rightfully told us to do better. 
Members of Congress have identified the need to refocus the program and 
create greater efficiency and accountability. As a result, AmeriCorps 
has tightened its management, reduced its per-member costs from early-
year highs, adopted tough rules on political activity, and cut off 
grantees that violated them. We intend to continue strengthening our 
management and personnel systems, change some of the ways our programs 
operate, and take additional steps to insure that each government 
dollar is used more effectively, For example, upon becoming the Chief 
Executive Officer, I established a new Department of Research and 
Policy Development, which reports directly to the Chief Executive 
Officer, specifically for the purpose of strengthening accountability.
    But may of the changes we envision to make our programs more 
efficient, effective, and responsive to local needs cannot take place 
without legislative, authority. I would like to bring forward some 
ideas for reform identified by the Administration, Members of Congress, 
the national and community service field, Corporation board members, 
service members, and professional staff.
    States, communities, and nonprofit organizations need greater 
flexibility. For example, community and faith-based organizations have 
told us that the rules and requirements for receiving a grant often are 
too complex and costly. States have told us that we can do even more to 
devolve decision making, particularly on grant selection, to the State 
level.
    Nonprofit groups often find our program confusing because rules are 
not consistent across different types of AmeriCorps programs. For 
example, Members of one program cannot seek part-time employment or 
schooling during their term of service, while members of another 
AmeriCorps program can. Moreover, most (but not all) AmeriCorps 
programs prohibit members from developing resources, performing routine 
administrative tasks, and engage in other activities that help 
nonprofit organizations increase their capacity to carry out their 
service mission. Unfortunately, that is precisely the kind of help that 
small grassroots charities are interested in receiving, and we need to 
support them while continuing strong prohibitions on the use of support 
for any political activities.
    Legislative reforms can also help with accountability. Early in the 
Corporation's history, the agency was not aggressive enough about 
holding grantees accountable for achieving results. Failure to meet 
goals did not have immediate and direct consequences. To be effective, 
the organizations with which we work must understand that failure to 
meet performance goals will have consequences. Although there is much 
that can be done administratively in this area, the statute can make 
this expectation permanent and more forceful.
    Currently, some of our programs are recruiting many additional 
volunteers for each government dollar spent; others are not. Our 
explicit goal should be to produce more volunteers for each government 
dollar spent. We should limit what the Federal Government can spend on 
average per member, put into practice more low-cost approaches to using 
members, and encourage more private support. When evaluating what we 
fund, we should recognize that a fundamental strength of AmeriCorps is 
to help mobilize and manage volunteers for our nation's charities.
    Sustainability is another goal that we should make more explicit. 
Currently, most AmeriCorps members (though not VISTA's) are restricted 
by statute from mobilizing resources and building the service capacity 
of the organizations with which they serve. We should set resource 
mobilization as a fundamental purpose of AmeriCorps and increase the 
types of support that AmeriCorps members can provide.
    We Should Also implement new ways to support and expand programs 
that are effective. One such way is a ``challenge grant,'' which would 
provide Corporation funds to organizations that raise new private 
money. The challenge grants would be used specifically to expand 
service and volunteering. For example, a successful program such as 
Teach for America, which recruits and trains recent college graduates 
to work as teachers in underserved communities, could increase its 
private support, in part by demonstrating to donors how private 
contributions would be ``matched'' by government funds. Such approaches 
would increase the flow of private dollars to such organizations and 
allow them to become sustainable with non-Federal resources.
    Another effective program model that should be expanded is 
AmeriCorps--NCCC, which is able to dispatch teams of members on short 
notice to help deal with natural disasters and other emergencies. For 
example, NCCC teams from across the country were dispatched to Pier 94 
in New York after the September 11th attack to provide assistance to 
victims' families through the Red Cross, and several teams helped 
operate an overflow homeless shelter in Salt Lake City during the 
recent Olympic Games. We should use this as a model for other 
programs--including those operated by public agencies and nonprofits--
that support public safety, public health, and emergency response 
efforts.
    We also need to reform some of the benefits we offer. Many 
AmeriCorps members have been disappointed because they have found the 
education award to be less valuable than they had believed it to be. 
Currently, the awards are taxable. Although many AmeriCorps members are 
eligible for education tax credits and deductions that fully offset any 
tax liability not all members qualify. We look forward to working with 
Congress to exempt the award from taxation and to provide greater 
flexibility in its use.
    Finally, the Corporation's Board and I want more opportunity to 
test new approaches in AmeriCorps. Currently, members ran serve only in 
organizations that have a grant from or an agreement with the Federal 
Government. We should explore new relationships with nonprofit 
organizations that will provide greater flexibility for individuals to 
do their service at the organizations of their choice.

                              SENIOR CORPS

    The Corporation for National and Community Service administers 
Senior Corps, which provides opportunities for more than 500,000 older 
Americans to serve in their communities. Senior Corps consists of three 
major-programs: the Retired and Senior Volunteer Program (RSVP), the 
Foster Grandparent Program (FGP), and the Senior Companion Program 
(SCP).
    President Bush spoke about expanding senior-service programs during 
the Presidential campaign in 2000, and he put forth several new ideas 
that would attract more seniors to service. In the 2003 budget, the 
President is proposing to expand this effort by supporting an 
additional 100,000 seniors in service.
    RSVP, by far the largest Senior Corps program, matches older 
Americans who are willing to help meet local needs With opportunities 
to serve in their communities. RSVP volunteers choose how and where 
they want to serve, and they determine how many hours a week they 
serve. RSVP volunteers provide a wide range of important services such 
as tutoring youth, responding to natural disasters, serving as citizen 
patrols for local police departments, teaching parenting skills to teen 
parents, getting children immunized, and mentoring troubled youth.
    Foster Grandparents provide valuable aid to children and youth with 
exceptional needs. Foster Grandparents serve in schools, hospitals, 
drug treatment centers, correctional institutions, and Head Start and 
day care centers, Foster Grandparents help abused and neglected 
children, mentor troubled teenagers and young mothers, and care for 
premature infants and children with physical disabilities.
    Senior Companions provide assistance to frail, homebound 
individuals, most of them elderly. These clients have difficulties with 
daily living tasks, and Senior Companions help them retain their 
dignity and independence.
    These programs date back to the 1960s and were created as much to 
provide support for, and supplement the incomes of the elderly as they 
were to foster continued civic engagement. In fact, participants in the 
Foster Grandparent and Senior Companion programs have to pass a ``means 
test'' to participate. They also have to be 60 years old, instead of 
the age eligibility of 55 required for RSVP. As a result, many people 
who want to serve are disqualified either because their incomes are too 
high or because they are too young--and many clients who need such 
services are denied them.
    For example, approximately 60 percent of program directors in the 
Foster Grandparent and Senior Companion programs say they are having 
problems recruiting participants. About 70 percent of both Foster 
Grandparent and Senior Companion grantees reported turning away people 
because their incomes were too high. At the same time, 95 percent of 
Senior Companion projects reported having client waiting lists, and 67 
percent said those lists have increased over the past year. For 
children in need of a Foster Grandparent, and for frail elderly, people 
in need of a companion to buy groceries or take care of other 
necessities, our programs' inability to fill slots is a very serious 
matter.
    As we look to the future--and to a rapidly expanding population of 
seniors interested in helping to meet community needs--we need to 
update and modernize our programs. We need to create new roles, 
opportunities, and institutions that are more flexible than they have 
been in the past. We need to provide additional incentives for seniors 
to serve, such as allowiug them to earn scholarship awards that can be 
transferred to their grandchildren or other designated individuals. 
These efforts should build on the best of the Corporation's experience 
with our programs and incorporate emerging knowledge about the 
preferences, education, and capacities of the coming wave of retirees.
    We also must have greater accountability in our system of support 
for senior projects, and a greater focus on achieving measurable 
results. Since 1996, we have implemented what's known as ``programming 
for impact,'' through which senior volunteer projects demonstrate how 
they deliver benefits to the communities they serve and help address 
high-priority local needs. Traditionally, senior volunteerism had, been 
more concerned with the benefits realized by the seniors themselves. As 
we move ahead, we need to ensure that grantees meet specific program 
objectives and accountability standards.
    The Administration's reforms will strengthen the senior service 
programs administered by the Federal Government. They will also ensure 
that older Americans will have expanded opportunities to serve in their 
communities, including supporting the efforts of public organizations 
charged with public safety, health, and emergency preparedness.

                        LEARN AND SERVE AMERICA

    Learn and Serve America provides grants to schools, colleges, and 
community groups to link academic studies to community service. Through 
such programs across the country supported by Learn and Serve America, 
more than 1.5 million students in kindergarten through college gain a 
deeper insight into their studies, develop problem-solving and other 
skills, and learn the habits of good citizenship while also helping to 
improve their communities.
    Service-learning and community service tied to education have 
experienced rapid growth over the past decade. A 1999 U.S. Department 
of Education study found that 32 percent of all public schools included 
service-learning as part of their curriculum, including nearly half of 
all high schools, and that 57 percent of all public, schools organized 
community service activities for their students. This growth is 
significant when compared to a similar study conducted in 1984 that 
found that only 9 percent of all high schools offered service-learning, 
and that only 27 percent of all high schools offered some type of 
community service.
    These programs are, critically important if we are to instill the 
ethic of a lifetime of service and civic involvement in a rising 
generation of Americans. And schools at all levels should seize on the 
President's call to service to look for ways to integrate service and 
education.
    But as we look to reauthorize Federal programs that support service 
and service-learning at our nation's schools and colleges, we believe 
we need to reexamine the purpose of Federal support at the elementary 
and secondary education level. We must make sure that funds are spent 
to improve the quality of these programs through teacher development 
and other means. We must make sure that the programs allow for the 
practice of civic skills and lead to the development of active, 
responsible citizens.
    As with the recent changes to the Elementary and Secondary 
Education Act of 1965 that were made by the No Child Left Behind Act of 
2001, we must add more accountability to the system of support for 
service-learning. Grantees should have specific program objectives and 
accountability requirements. The Corporation should have authority to: 
1) establish performance measures for each grantee; 2) require 
corrective plans for those not meeting goals; and 3) reduce or 
terminate grants if corrections are not made.
    At the higher education level, we propose to increase the service 
goals for the Federal Work-Study Program--a popular form of financial 
aid initiated in the 1960s that currently reaches nearly a million 
students a year. Among the program's statutory purposes is ``to 
encourage students receiving Federal student financial aid to 
participate in community service activities that will benefit the 
nation and engender in the students a sense of social responsibility 
and commitment to the community.''
    Over the years, a significant amount of work-study has been devoted 
to such on-campus tasks as staffing academic departments, processing 
admissions applications, and filing away library books. According to a 
2000 study, about 40% of FWS students were employed as clerks or office 
workers. This same study notes that \3/4\ of FWS students selected 
their own jobs but it was unclear that they were offered options to do 
community service. Indeed, the national average of such funds devoted 
to community-serving activities is about 14%. To be sure, the work-
study percentage devoted to community service is not necessarily 
reflective of a school's total commitment to service. For example, at 
the University of Notre Dame, 75 to 80 percent of students get involved 
in community service at some point during their undergraduate years, 
while the university's community service commitment under work-study is 
very small. But a pattern of minimal commitment to community service 
programs under work-study by some of the nation's best schools appears 
evident.
    It is not just colleges and universities, however, that are 
lagging. A poll of this year's freshmen at four-year colleges who 
participate in a study conducted by the American Council on Education 
and the University of California at Los Angeles Higher Education 
Research Institute, found that more than 50 percent said they spent 
less than 1 hour a week doing volunteer work during their final year of 
high school--and that an additional 24 percent volunteered only 1 to 2 
hours a week. That figure is troubling because, while related to 
educational attainment, service and citizenship patterns are 
established at a young age and persist throughout a person's lifetime.
    Perhaps that explains why, despite the amount of time and relative 
freedom students have, rates of volunteering among undergraduates are 
less than those of the population as a whole. According to the National 
Post-Secondary Student Aid Survey, in the 1999-2000 academic year 34.6 
percent of all undergraduates participated in voluntary community 
service the previous year. That is fully 10 percentage points less than 
the national average as measured by the Independent Sector. Even taking 
into account the nontraditional student, with greater responsibility 
for family and work, the number of hours volunteered by the traditional 
undergraduate at four-year institutions is less then the average 
reported by the Independent Sector. Although college graduates are more 
likely then those who do not attend college to volunteer as adults, 
increasing student volunteering would likely produce even higher rates 
of adult volunteering in the future.
    Improving these rates will not be easy. Those who have worked with 
volunteers know that it takes more than motivation to get someone to 
serve; it also requires asking and creating meaningful opportunities 
for people to participate. September 11th may have given many more 
Americans the desire to become active citizens, and President Bush has 
asked all of us to act on that desire. But whether we really do commit 
to service will depend heavily on the efforts of all of us in positions 
of leadership--whether in government, in colleges and universities, in 
voluntary associations, and in student groups--to enlist our fellow 
citizens to take responsibility for our communities.
    We hope that college and university officials will work with us to 
increase the percentage of Federal work-study funds devoted to 
community service.

                     MANAGEMENT AND ADMINISTRATION

    All of us involved with national and community service--the 
Corporation's Board, its previous CEOs, the Congress, State 
Commissions, and programs across the country--have recognized the 
management and administrative challenges of running the Agency over the 
last decade. While more remains to be done, the organization has made 
significant progress over the last couple of years.
    More specifically, fiscal year 2000 was a landmark year for the 
Corporation in that for the first time in its history, it received an 
unqualified opinion on its financial statements. This achievement 
resulted from a commitment to strong management control and 
accountability for financial resources. I'm pleased to report that the 
2001 audit showed that our progress continues, as we received a ``clean 
opinion'' for the second year in a row. Perhaps more important, the 
number of operational areas deemed to be materially weak was reduced to 
zero. Not that long ago, we were cited for 10 material weaknesses.
    The Corporation, in other words, has reached the point where it is 
on solid financial ground. But our management and administrative work, 
is not done. In general, the Congress has provided the tools and 
support necessary for the Corporation to achieve management 
improvements, and I would like to thank this Committee for its efforts. 
We have additional ideas that are intended to strengthen the ability of 
the Corporation, States, and communities to inspire people to serve and 
help them find ways to improve their neighborhoods.
    Finally, in support of tbe President's call to service, we ask that 
the Corporation's reauthorization bill reauthorize and update existing 
provisions of law that support the Points of Light Foundation and 
America's Promise: The Alliance for Youth.
    Mr. Chairman, that concludes my statement. We are clearly at an 
opportune moment in the history of Federal support for service. I look 
forward to working with you and with the other Members of Congress to 
pass reforms and extend national service legislation this year. I am 
available to address any questions that the Committee may have.

    The Chairman. Thank you very much.
    This is very ambitious, but we like to believe this 
committee is up to the challenge.
    I remember very well being at the 25th anniversary of the 
Peace Corps and sitting at the table with the first volunteers 
and asking them how they became involved. They all gave 
virtually the same answer, and that was that this was the first 
time anybody had asked them to do something for others--
paraphrased in different ways, but it was a very, very powerful 
message.
    The way that I read what the President is talking about is 
how to create more of those opportunities. People want to be 
able to volunteer. We should not limit this just to those who 
are financially well off. The motivation for service is there 
for people with limited resources as well as those who have 
substantial resources.
    As I understand it, we are going to give that opportunity 
to as many different citizens as we can. Building on the senior 
service programs which have been in effect, actually, since the 
early 1960's we can create new opportunities. In Fall River, MA 
seniors work to keep neighborhood libraries and museums open, 
escorting children through there and helping them to learn. 
They get $2.65 an hour--but that is precious to them, and it is 
really important to the community. So we want to try to do as 
much as we possibly can, and then we want to make sure that 
those are good programs and we want to evaluate them.
    At the time that we passed the legislation, for the 
Corporation, as Senator Mikulski pointed out, we brought into 
the program the Points of Light Foundation into the program. 
Now the Points of Light Foundation is operating and has their 
own board. We also have America's Promise, Colin Powell's 
program. As I understand it, although you can explain that to 
me, we are now adding the Freedom Corps, and at least a good 
part of that is going to be out of FEMA. We need a clearer idea 
of how all these Corps are going to function.
    One thing that the previous administration tried to do was 
to get each of the Cabinet offices to develop programs within 
the Cabinet agencies, and they had varying success depending on 
whether they were really interested, but some efforts were very 
important and very successful. We need to know how FEMA will 
operate.
    I am just trying to get a handle on how this overall 
structure is going to work. We have spent time, not as 
successfully as some would have liked, trying to bring programs 
together, consolidate different programs, consolidate 
administration, use resources in terms of the objectives, and 
we want to try to work with you on this, but we want to get 
some idea and understanding about how these boards will work, 
how they will interact, and how we are going to avoid the kind 
of inevitable struggle that I imagine will come along between 
them.
    I would be interested in how you look at this--and I do not 
want to spend a lot of time on it, but I would like to hear you 
out on it.
    Mr. Lenkowsky. Thank you, Senator.
    It has been a bit confusing, we know. I would like to say 
sometimes that we have a corps identity crisis going on. The 
Freedom Corps is a Cabinet-level organization. It is a White 
House organization that will indeed do the kind of 
consolidation that you are talking about. If you think of it as 
an equivalent in some ways to the National Security Council or 
the National Economic Council, that would be pretty close to 
the mark. It would be a group of people at the Cabinet level 
plus agencies like mine represented on it that will meet to 
coordinate all the work that goes on within the Federal 
Government related to volunteering and creating opportunities. 
The President has in fact already directed the members of the 
Cabinet to inventory their own programs preparatory to 
identifying ways by which other Cabinet departments can 
effectively promote volunteering and service.
    So we will be working closely with the Freedom Corps. The 
Freedom Corps does not change any of our legislative authority 
or my responsibility as the CEO of the Corporation for National 
and Community Service but gives us enormous opportunities to 
work more closely with other Cabinet agencies, with the Peace 
Corps, and with the collection of volunteer groups that are 
grouped under Citizens Corps and will be focusing exclusively 
on homeland security tasks.
    The Points of Light Foundation is currently authorized 
within our statute, and we are recommending as part of the 
President's principles that America's Promise be so authorized 
as well. Both of these organizations have unique status in 
terms of their relationship to our mission.
    I mentioned in my opening statement the Volunteer Centers. 
These are wonderful organizations. There are over 500 of them 
in every community. They are a kind of switchboard, so if you 
are new to a community and want to find a way to get involved, 
you could call up the Volunteer Center, and that is what they 
help you do. They work closely with colleges and universities 
as well to place students in service.
    One of the principal roles of the Points of Light 
Foundation is to work with, coordinate, and help enhance the 
activities of those Volunteer Centers, so we feel that it is 
very fitting for us to have a close relationship with them.
    With America's Promise, one of the five promises of that 
organization is to give young people opportunities to give 
something back so that young people are not just the objectives 
of attention, but they can contribute in a constructive way to 
their society. We feel this is very important as well for 
healthy youth development; it again fits very closely with our 
core mission of helping people find opportunities to serve. So 
we feel that having a good, close relationship with that 
organization as well will be an asset for us to achieve our 
mission of promoting greater civic engagement.
    The Chairman. We welcome the opportunity to go through and 
have a better sense. The Corporation now, as I understand, is 
under the Freedom Corps; is that right?
    Mr. Lenkowsky. That is correct. We are a component.
    The Chairman. How is the Freedom Corps established--is the 
President going to name those members?
    Mr. Lenkowsky. It is an executive order, and the President 
has already identified a number of Cabinet members plus 
independent agency heads such as myself and the head of the 
Peace Corps as members of it.
    The Chairman. Let me just mention quickly a couple of 
issues. One is the work-study program. As you know, the work-
study program is targeted generally--the only eligible children 
are students identified by colleges as financially needy. The 
average income for participants, at U-Mass Boston is $18,000. 
They have to spend a certain amount of their work study money, 
7 percent--it is not a lot--doing community service work. We 
looked at this over a period of time as far as increasing that 
requirement, and there are a number of issues raised, including 
whether we are just going to have the neediest students in the 
schools involved in community service, or whether it is going 
to include the class generally so we are not bifurcating the 
class. That is number one. Second, the colleges themselves are 
going to have to undertake the program, so they are wondering 
whether they are going to get support for the development of 
these programs so they will have high-quality programs, 
particularly among the smaller colleges, and there are many 
smaller, independent colleges in our part of the country.
    Your thoughts?
    Mr. Lenkowsky. We are very sensitive to that. As you know, 
Senator, I am a former college professor, and I do appreciate 
how valuable the existing Federal work-study program is for 
students and for the schools they attend.
    We want to work with colleges and universities to build a 
culture of service, citizenship, and responsibility on every 
campus. Federal work-study in our view is one tool for that but 
by no means the only tool. We think that some of our AmeriCorps 
education award programs can be more effectively utilized at 
colleges and universities. We think that traditional service 
programs can also be used, as well as other things.
    We have had some very promising discussions going on since 
the President's proposal with the head of the Independent 
Colleges Association, David Warren, with the president of Tufts 
University, and with several others. I think everybody shares 
the goal of trying to get more college students. I frankly 
would like to see as close to 100 percent as possible engaged 
in service through one means or another.
    With regard specifically to the work-study program, we do 
think that students ought to have an option to decide whether 
they would like to do their volunteering on campus or tutor, as 
you are doing, or mentor or other things off-campus.
    A recent study done for the Department of Education showed 
that close to 80 percent of Federal work-study students did not 
know that if they wished to do so, they could use their Federal 
work-study funds in the America Reads program, which is a 
tutoring program that helps children gain in reading--something 
that I know is very important in light of the bill that we just 
passed and this committee helped to enact.
    So we would like to see Federal work-study students have 
that option, but we agree completely with you that service 
should be an expectation for all students, not just for those 
who receive Federal work-study.
    The Chairman. In Massachusetts, we had the highest 
percentage of volunteerism in schools of any State. California 
has always been a leader in volunteerism but we managed to make 
them second place. Tufts University has helped Massachusetts 
lead the Nation. Their former President, John Di Biaggio was an 
enthusiastic supporter. I have been to his conferences. He was 
a strong believer, and he has had a very important and powerful 
impact and his successor Dr. Bacon seeks to continue Tufts' 
commitment and I think we can learn a good deal from this 
institution.
    Senator Gregg?
    Senator Gregg. Thank you.
    Dr. Lenkowsky, you certainly outlined a whole series of 
legislative changes as part of the President's initiative. Are 
you going to send us up some language or a package which 
reflects those?
    Mr. Lenkowsky. We would be glad to provide language if you 
would like to see it, Senator. We thought we would send up 
principles at this point so that we could work with you, but if 
you would like to see us translate some of those principles 
into language, we would be glad to do so.
    Senator Gregg. Well, ``The memo does control the meeting,'' 
to quote Dr. Kissinger, so I think language might be helpful.
    Mr. Lenkowsky. Thank you.
    Senator Gregg. This Silver Certificate is a new concept. As 
I understand it, somebody who works in the Senior Service Corps 
can work a certain number of hours or commit a certain number 
of hours to public service and earn a certain amount of 
academic credits or college credits which can then be passed on 
their grandchildren?
    Mr. Lenkowsky. It would be similar to the education award 
that we have in AmeriCorps, although at a smaller value. I 
think the proposal we have in our budget is $1,000. So if you 
commit a significant amount of time over the course of a year, 
you would earn a Silver Scholarship that could be passed along 
to 2T; it could be put in a Coverdell IRA for education 
purposes for a child or grandchild. It is a way of recognizing 
the contributions of seniors to service, particularly those 
seniors who wish to commit a fairly substantial amount of time.
    Senator Gregg. And that would have to flow to a relative?
    Mr. Lenkowsky. Not necessarily. It could be set up so that 
if you were tutoring somebody, as many of our Foster 
Grandparents do and R.S.V.P. people, you could make that 
scholarship available to the person that you were tutoring or 
mentoring. Again, you would want to set it up in an education 
IRA or something like that.
    Senator Gregg. Do you have a cost assigned to this yet?
    Mr. Lenkowsky. It is in the budget. It is a fairly modest 
cost. We can get you that number.
    Senator Gregg. It sounds like a very creative idea.
    You said something in your testimony that I found 
interesting and that was that, I believe, 87 percent of the 
people in high school said they would be willing to give a year 
of public service.
    Mr. Lenkowsky. That is 81 percent of people between the 
ages of 15 and 25. This was a new poll done for a center at the 
University of Maryland.
    Senator Gregg. And have you or your organization given any 
thought to how you would create a year of public service that 
was universal?
    Mr. Lenkowsky. Well, we have certainly talked a lot about 
AmeriCorps, and AmeriCorps of course does provide a service 
opportunity that is close to full-time if people want to do 
this, or you could do it half-time for a year or even up to 2 
years.
    Right now, the President is proposing an increase in the 
number of AmeriCorps positions from 50,000 to 75,000. We feel 
this is a step in the right direction.
    We are fortunate in this country in having a lot of 
opportunities for people to serve. Not everybody has to serve 
in AmeriCorps, but obviously, we think that our program is a 
very important way by which we can respond to that interest. 
Even at 75,000, of course, there may be an even greater demand 
than we can fulfill at that number, but we want to proceed 
cautiously in expanding the program so that we do not create 
the kinds of management problems that we have had in the past.
    Senator Gregg. And of course, 81 percent of the population 
would be millions.
    Mr. Lenkowsky. It would be indeed. It is really very 
heartening.
    Senator Gregg. But there is nothing on the drawing board to 
address that.
    Mr. Lenkowsky. Not directly from us, but we think we are 
moving in that direction. We think that by creating 
opportunities--one thing, for example, that AmeriCorps members 
will be doing under our proposals is that their assignments 
will require them to engage other people in volunteering, 
people who might not be volunteering full-time but would be 
volunteering a few hours a week. We call this ``volunteer 
leveraging,'' and one great example of it is what happens with 
AmeriCorps members at Habitat for Humanity. Our members at 
Habitat do not replace volunteers who are building houses, but 
they come in early, they get the site ready, they help recruit 
volunteers; they do all the things so that when the volunteers 
come up to build that house on a Thursday or a Friday and spend 
the weekend doing it, they have a very positive experience that 
has two very good effects--one, we are engaging and responding 
to those people who want to serve, but two, when people 
volunteer and have a good experience volunteering, it is a good 
bet they will be back again.
    Senator Gregg. City Year is part of AmeriCorps, isn't it?
    Mr. Lenkowsky. It is indeed.
    Senator Gregg. Job Corps, however, is not involved in any 
of this discussion.
    Mr. Lenkowsky. Job Corps is not part of our program; I 
believe it is part of the Department of Labor.
    Senator Gregg. But it is not part of the USA Freedom Corps 
discussion, either?
    Mr. Lenkowsky. No, sir. The Department of Labor is a member 
of the Freedom Corps Council, and they may be thinking of ways 
to use Job Corps in relation to this, but I am not privy to 
those discussions.
    Senator Gregg. Well, then, you are the wrong person to ask 
that question of. I am interested in how we can develop a 
program that is more targeted on urban areas that are inner 
city and disadvantaged, where kids in high schools who are 
identified as having potential but are trapped in violence and 
drugs would have the opportunity to go into a service program 
for a year, which would give them some footing and would also 
give them a future and give them something toward their 
education when they got out.
    Mr. Lenkowsky. We actually do have a lot of those programs 
already within AmeriCorps. One out of five AmeriCorps members 
report that their parents receive food stamps. So we are 
reaching that age group.
    One of my aides just visited a program called Improved 
Solutions for Urban Systems in Dayton, OH. It is a charter 
school that serves at-risk young people, 300 of them right now. 
It is very successful. They are thinking of expanding to 
Cincinnati and Columbus. These are young people who have 
dropped out, in a way, of the existing high schools. They are 
enrolled in this program, they are earning their GED. They all 
become AmeriCorps members when they turn 17, which is our age 
limit, so they could start earning that education award, and 
they are receiving training in things like computer technology, 
construction activities. They are putting the training to use 
while they are going to school; it is service learning, and it 
is a very successful program. In fact, it was called to my 
attention originally by someone who had not been exactly a fan 
of AmeriCorps but had seen this program in action and said, 
``This is really great; I did not know you were doing this.''
    Well, we have lots of programs like that already, and 
certainly one of the President's principles is to increase 
support for community-based organizations, and I think that is 
where we will get even more and get more young people involved 
that way.
    Senator Gregg. Well, at some other time, I would like to 
follow up on that. I would be very interested in further 
initiatives like that.
    The Chairman. Before leaving that issue, take a look at 
young people in urban and rural areas who are prepared to work, 
say, four summers so that they will have the opportunity to go 
on to college; so it is not just waiting until they graduate 
from high school, and do community service at least they can 
begin to work, and if they do it and stay in school, something 
might be out there at the end. We have some ideas----
    Mr. Lenkowsky. Summer is a great unutilized resource--I say 
this as a professor. We always know that things drop off in the 
summer, and to keep high school students or junior high school 
students engaged actively in the summer has many positive 
effects.
    The Chairman. Senator Mikulski?
    Senator Mikulski. Thank you, Mr. Chairman.
    I want to return to the questions raised by Senator Kennedy 
related to Freedom Corps, AmeriCorps, and the Corporation for 
National and Community Service and so on.
    Senator Kennedy said this lacks clarity, and he felt 
confused. I felt confused. And quite frankly, if Kennedy and 
Mikulski are confused about national service, America is 
confused about it, because we have been so involved in it.
    As I understand it, the Freedom Corps is a council of other 
corps; is that right?
    Mr. Lenkowsky. And Cabinet agencies, yes, Senator.
    Senator Mikulski. OK--and Cabinet, or independent, like 
FEMA.
    Then the question becomes FEMA is involved, HHS is 
involved--and I am not going into the merits of the program, 
although I have some flashing yellow lights around them. So the 
question is do all of those programs need to be authorized--the 
Medical Reserve Corps, the Volunteers in Police Service 
Program, a doubling of the Neighborhood Watch, which I did not 
even know was a Federal program, the tripling of the Community 
Emergency Response--do they all have to be authorized, and then 
they will be funded separately?
    Mr. Lenkowsky. I cannot really speak to the Citizen Corps; 
I think that would probably be better directed to the head of 
FEMA. I think most of those already exist. There is a 
recommendation in the President's budget for some additional 
funding, and I believe it goes through the HUD-VA 
Appropriations Subcommittee.
    Senator Mikulski. What is your role in that? Are you just 
one of the guys at the table, or----
    Mr. Lenkowsky. No. We run the Corporation for National and 
Community Service which is a second leg of this three-legged 
stool, if you will.
    Senator Mikulski. Who is in charge of this Council?
    Mr. Lenkowsky. There is an assistant to the President named 
John Bridgeland, a special assistant to the President, who is 
executive director of the Council. The President, of course, is 
the chair of the Council.
    Senator Mikulski. I understand that, but here is my 
question. Is all the money for all of these corps in the 
budget?
    Mr. Lenkowsky. I believe it is in part of President Bush's 
2003 budget, Senator.
    Senator Mikulski. And would the head of the Freedom Corps 
Council be accountable to Congress in some way so that we could 
get a picture of how all this works and operates, or is this 
like a Tom Ridge position? [Laughter.] I am not being 
sarcastic.
    Mr. Lenkowsky. As I am accountable to you and to Congress 
generally for everything the Corporation for National and 
Community Service does, my colleague, the head of the Peace 
Corps, remains accountable to you and Congress.
    Senator Mikulski. I understand that, but----
    Mr. Lenkowsky. I think Mr. Bridgeland's relationship to 
Congress would, I imagine, be parallel to the relationship of 
Condaleezza Rice as assistant to the President in the National 
Security Council.
    Senator Mikulski. Well, I think we willneed to come back to 
this question, because if we are going to be spending this 
money, we need to all be going in the same direction.
    Let me return to AmeriCorps, which is central to this. The 
original goals of AmeriCorps as we established it were around 
three deals. First was what I call character-building, meaning 
the instillation of the habits of the heart, so you not only 
volunteered to get the voucher, but you would also embrace the 
spirit of national service, and you would go on--hopefully, be 
involved in alumni associations like in the Peace Corps, and 
you would be a potent leader.
    Then, the second was community-building by what you did in 
the community; and third was your own empowerment, meaning that 
you would learn new skills, and you would learn a way to either 
reduce your student debt or pursue higher education either 
full-time or part-time, because not everybody can go away to 
volunteer. A single mother working for a voucher to go to a 
community college could not go away, and someone with high-tech 
skills in engineering might not want to go away for a year but 
could work at Habitat or as a design center/urban renewal 
person.
    So here are my questions. First, in the reassessment of 
national service, do you feel that the goals continue to be the 
same, and second, under the framework that the President is 
proposing, how do you see those goals continuing to be 
achieved, or do you feel they need to be revised?
    Mr. Lenkowsky. I think the goals continue to be the same, 
and I would actually add a little bit to one of those goals--I 
think it is very consistent with it--which is that we ought to 
use the members of our programs to help build the capacity of 
local not-for-profit and charitable organizations, because we 
are always going to be limited. As Senator Gregg pointed out, 
there are lots of Americans who want to serve. We are probably 
not going to have the programs ever in this agency to respond 
to all of them, but we have lots of not-for-profit groups 
around the United States, and by using our members who give a 
significant commitment of their time to work in these groups, 
we can strengthen them so that those groups in turn can engage 
more people in service.
    I certainly think--and as you know, Senator, I have been a 
board member not only since the Corporation but going back to 
the Commission on National and Community Service--and I 
certainly think the three goals that you articulated--the 
citizenship goal, the habits of the heart, giving useful 
community service and that sense of ongoing empowerment, a 
lifetime of developing real skills that you can take with you 
as you go into other aspects of your career, remain central, 
and I think that every one of our efforts here, every one of 
the President's principles, is designed to reinforce those 
objectives.
    Senator Mikulski. First of all, I appreciate that, but I am 
concerned that we are really going to get scattered here--I do 
not mean here at the hearing--but with all of the various 
corps, I think it is going to get scattered. That is number 
one.
    No. 2, in terms of AmeriCorps, one of the building blocks 
of the program is the role of the Governors and that there 
would be commissions at the gubernatorial level so that we 
could have some form of training, some form of accountability, 
so that people were not going in different directions with 
service du jour or current fads, so that it was focused on 
public issues that you are so experienced in.
    Where do you see this fitting in, and do you see the 
Governors then being part of something like Freedom Corps 
councils?
    Mr. Lenkowsky. No. The Governors----
    Senator Mikulski. And I do not want to get too wonky here, 
but you see what I mean.
    Mr. Lenkowsky. I certainly understand and sympathize with 
you on this confusion. In terms of our agency, though, as you 
know, we have State commissions in each of the 50 States--well, 
49; I think one of the Dakotas is just getting a State 
commission now. These are all gubernatorially-appointed 
commissions. That is how the Governors get involved.
    We are proposing to give more authority to those 
commissions and to couple that with accountability. We would 
like to give them even stronger incentives to do State planning 
so that the resources of the Corporation are devoted to the 
most pressing State and local needs as these commissions and 
therefore the Governors see them.
    These commissions consist of distinguished citizens in each 
State----
    Senator Mikulski. I want to talk about what they are going 
to do; I know who they are.
    Mr. Lenkowsky. The commissions will continue to do what 
they are currently doing----
    Senator Mikulski. They are not, then, going to be a 
coordinator for the Freedom Corps, the Neighborhood Watch, and 
so on?
    Mr. Lenkowsky. No, they are not. There will be another 
apparatus that FEMA is responsible for that will do that. To 
the extent our people will be involved at all, about 30 
percent, I am told, of AmeriCorps and Senior Corps positions in 
one way or another deal with public safety, health, and 
disaster preparedness, and as those citizen corps, the FEMA-
coordinated councils, at the State and local level develop 
their plans for responding to disasters or--we hope they will 
not occur--future terrorist attacks, part of the assets they 
will take into consideration will be people engaged in the 
Corporation's programs.
    Senator Mikulski. Well, again, I think we need a lot more 
clarity here. I believe in flexibility and creativity at the 
local level. I am also concerned that we could be pursuing the 
volunteerism du jour issue--and I am not being critical; I am 
just raising this as an issue.
    I just want to make two additional points, and I know my 
time has expired, and other colleagues are here, but I want to 
raise two flashing yellow lights, Dr. Lenkowsky.
    First, we as appropriators of national service are being 
deluged by national programs for earmarks. We are earmark-
deluged by very worthwhile programs--the YMCA, Teach for 
America, and others that I could elaborate on--they are 
outstanding, and they are doing a great job. But I am now 
becoming the authorizer-by-proxy, because we have not thought 
through how the Corporation is going to be responsive to 
national organizations who then do their work at the local 
level.
    So we are really going to look to you for guidance in the 
appropriations hearing on that and then how to address that.
    The second yellow flashing light is with the innovation of 
how to use the voucher, I just want to alert you--not warn you; 
it is not meant to be a stern word--we are heading toward being 
a Finance Committee bill. And I will tell you that if this goes 
to the Finance Committee, we are dead, because they have so 
many other things ahead of them. The senior voucher to pass on 
to the grandchildren will end up in the Finance Committee, and 
they get very cranky about anything related to what they view 
as compensation or a benefit.
    The second issue, of course, is the proposed use of a 
service voucher for either health care or a prescription drug 
benefit. This committee is absolutely aware that these are 
compelling national needs. But we are now very concerned that 
these proposals seek to compensate for a lack of national 
policy on these issues. Do we really want to use national 
service where you have to become a volunteer to be able to 
afford your insulin? I do not know about that.
    Mr. Lenkowsky. That is certainly not the intent, Senator.
    Senator Mikulski. But these are yellow flashing lights, and 
perhaps you can respond in a wrap-up--I intend to stay here a 
few more minutes--but I really do not want to take this bill to 
the Finance Committee, and I think we are going to need to talk 
about it, because it could stall what you want to do.
    Senator Kennedy wants to move on a pretty good track, and I 
am your appropriator, so we could really have at least, if not 
the whole President's plan, a good down payment this year, and 
then move right along next year.
    So, know that I want to work with you, but you see my 
flashing yellow lights.
    Mr. Lenkowsky. I certainly do, Senator, and we are looking 
forward to talking with you. I am scheduled, I think, along 
with Mr. Bridgeland to see you next week, and we can talk more 
about this as well as the Freedom Corps.
    Let me just say that our intent here is not to use service 
to compensate for other kinds of public policies. Rather, what 
we are trying to do is make service as attractive as we 
possibly can.
    I was doing a C-SPAN call-in show one morning, and a woman 
called in from Ohio, saying that she was a VISTA member at age 
62, and she really felt good about her service, but the 
education award that you got at the end of this service was not 
exactly relevant to her.
    Well, one way of making it more relevant is by making it 
transferrable; another might be by exploring alternative uses 
for the education award.
    Another big issue that we have to deal with--and it is the 
complaint I hear most often from AmeriCorps members--is that 
our education award is taxable----
    Senator Mikulski. Yes. That has been a decade-long thing.
    Mr. Lenkowsky [continuing]. So that you have given 2 years 
of your life serving in inner-city communities like Red Hook, 
NY, really doing great work at community organizing in a 
community that has been torn apart by a highway; you go in 
there, and you put in 2 years, and most of the members, by the 
way, come from that community. And then, at the end of that, 
when they are trying to get going in their careers, we say, 
``By the way, about 15 percent, 20 percent,'' whatever it is 
going to be, ``of your education award, we are going to tax 
away.'' It is not right.
    Senator Mikulski. Yes. This is going to apply to another 
conversation. Thank you.
    The Chairman. I would just mention here, Senator Mikulski, 
that one other matter I mentioned to Mr. Lenkowsky yesterday 
was the McCain-Bayh 18-18-18 legislation, where you enroll in 
active duty for 18 months, the reserves for 18 months, and 
community service for 18 months. There may be some positive 
elements here, but that goes basically to the Armed Services 
Committee. The Senators feel very strongly about it, both of 
them, and I have talked with them about it, and that has very, 
very profound implications both in terms of recruitment as well 
as the education provisions, the Montgomery provisions in the 
armed services that are available to people in the Guard, and 
we are obviously interested. And I am sure that whatever comes 
out, that will be the first amendment that will be offered.
    Obviously, we want to try to the extent we can to deal with 
all of these issues. I would just underline, though, what 
Senator Mikulski said about the issues that will be referred to 
the Finance Committee--and we can talk about that at another 
time.
    Senator Jeffords, welcome.
    Senator Jeffords. Good morning.
    This is the first I have heard about this, and I would like 
to learn more about it. Being the one in charge of FEMA, I was 
surprised to see this and not know about it.
    Other than that, I certainly want to commend any kind of 
program which helps in these areas, and I want to learn a 
little more about it.
    How will the $280 million that the President announced 
yesterday be administered? From what I read in this morning's 
paper, the new Citizen Corps would be tied to FEMA. Will FEMA 
or the Corporation for National Service implement this program?
    Mr. Lenkowsky. It will be FEMA, Senator. Again, a lot of 
the questions related to Citizen Corps, I would encourage you 
to direct to the head of FEMA; this is their portion of it, as 
I said in an earlier response.
    Our relationship to Citizen Corps basically comes about as 
a result of the fact that about 30 percent of our members are 
doing public safety, public health and disaster preparedness, 
and therefore, as State and local councils inventory the 
resources that might be available in the case of an emergency, 
they will take into account people who are engaged in 
AmeriCorps or Senior Corps for the most part.
    Senator Jeffords. I am obviously interested in FEMA's role 
here. Is it the intent of the administration to use a new 
Citizens Corps program in both urban and rural communities, or 
just in the urban?
    Mr. Lenkowsky. I believe so. I think it is really meant to 
be a comprehensive program to safeguard against the great risks 
that we now recognize in our country.
    Senator Jeffords. And what entity will oversee it? Who will 
have oversight of the program.
    Mr. Lenkowsky. The Citizens Corps?
    Senator Jeffords. Yes.
    Mr. Lenkowsky. I think that is FEMA.
    I hope you have all had a chance to receive--and we had 
asked to be brought up to the committee this document, which is 
the Freedom Corps booklet that was released after the 
President's State of the Union. This helps a lot, but again, I 
am sure that Mr. Bridgeland would be glad to come by with the 
head of FEMA at an appropriate time to meet with you and go 
over this.
    We know there is a certain amount of confusion there. It is 
a new idea. We think it all works, and from my point of view, 
it is a big positive for what we do at the Corporation to be 
able to work with a Cabinet-level agency like the Freedom 
Corps. But obviously, like a lot of new ideas, it needs to be a 
little bit clearer and better-explained.
    Senator Jeffords. Well, I obviously look forward to 
learning more about what the intentions are and what 
responsibility FEMA will have.
    Thank you.
    Senator Mikulski. If I could, Senator Jeffords, as you 
know, I am the appropriator for FEMA, and we are not averse to 
the President's suggestions, but it is really confusing, and 
FEMA has no experience in this. Its experience with 
volunteerism is the volunteer fire departments, and that has 
been outstanding. The President's budget request for Citizen 
Corps programs is for $230 million. A year and a half ago, that 
is what we were putting into the Fire Grant program to help all 
the volunteer fire departments around the country.
    So you and I need to talk, and maybe even hold a joint 
roundtable so that we can get it right and sort this out.
    Senator Jeffords. I agree with you. I think we have to get 
together, obviously.
    Mr. Lenkowsky. I will convey that to Mr. Bridgeland as 
well.
    Senator Jeffords. Thank you, Mr. Chairman.
    Senator Wellstone. And I would add to what you all have 
just said--I think we just got this this morning.
    Mr. Lenkowsky. That is a different document, Senator.
    The Chairman. That brings us to the introduction of my 
friend Senator Wellstone.
    Senator Wellstone. Dr. Lenkowsky, welcome.
    Mr. Lenkowsky. Thank you.
    Senator Wellstone. I would like to raise a concern with you 
about service learning. There is not a lot of emphasis or talk 
about expanding service learning in this reauthorization the 
way we are talking about some of the other programs. Our 
colleague John Glenn headed up a really important Commission on 
Service Learning, and from my 20 years teaching, all of what he 
says rings true. You can reverse some of the student 
disengagement and get students more involved. The whole 
bringing of the real life context to the classroom can be 
magic. The citizen aspects of public education--John Dewey 
talked about the importance of public education to democracy. 
Getting students more involved in communities--I have seen it 
in Minnesota--is just incredible. Mr. Jim Keilsmeyer in 
Minnesota is I think one of the really great national leaders 
on this.
    Overall, it has been just win-win-win. So given the 
extraordinary, I think, contributions of service learning that 
I have just outlined, why not more of an emphasis on the 
expansion of service learning by expanding the Learn and Serve 
program?
    Mr. Lenkowsky. We do have a number of items in our 
proposals, Senator, that do address this. First, of course, the 
whole emphasis on expanding service among college students, 
which is symbolized by the Federal work-study program but goes 
beyond that, as I had occasion to say a bit earlier, implies 
expanding service learning in higher education.
    Like you, I was a college professor, and I used to do 
service learning with my students as well, and it is very 
valuable. I think that insofar as we are encouraging more 
colleges and universities to take service seriously across the 
board, that is one way that we are responding to this.
    A second way is that when President Bush called on 
Americans to devote 4,000 hours of service over their lifetime, 
he was very careful to indicate that service learning is one 
kind of activity that would qualify in his view toward those 
4,000 hours.
    I had a meeting with Senator Glenn and other members of the 
commission at about that time, and I pointed out that this is 
in fact a call on all schools to start developing service 
learning programs to help students fulfill that 4,000 hours.
    Also, through the expansion of AmeriCorps, we expect that a 
number of AmeriCorps members will participate in various ways 
in service learning. And last but by no means least, in our 
proposals with regard to Learn and Serve America specifically, 
we are interested in working with members of this committee in 
connection with the current funding we are providing to give 
more emphasis on quality improvements in service learning 
programs.
    I was interested to read some of your proposals, Senator, 
where you put your finger on exactly the major area where we 
most need help, and that is teacher training. Yet the current 
way that we are doing business at the Corporation in Learn and 
Serve America, my understanding is that we have a great deal of 
difficulty targeting some of the funds at whatever level you 
choose to appropriate them on teacher training.
    So first we need to make this kind of change in how we are 
allocating the funds, and then we will use that to build, at 
whatever level you choose to appropriate, to build in the kind 
of quality improvements that we think are necessary.
    When we started Learn and Serve America, a relatively small 
fraction of K-12 schools had service learning programs. Our 
best data now suggest the percentage is above one-third. So we 
have really had a good impact in terms of seeding. Our view, as 
with our other proposals, is the next step is quality.
    Senator Wellstone. I appreciate your comments, and one 
piece that I am certainly hoping will be a part of this is the 
Hubert Humphrey--we like that name in Minnesota--Civics 
Education Act, and part of that is to bump up the authorization 
for service learning, and to expand teacher training through 
summer institutes.
    Summer institutes have been incredibly important and 
effective. When you bring people together, and people exchange 
notes and renew one another, and it is a big bang for the buck.
    Where I think I disagree with you, though--and I am sure 
Senator Glenn has had this conversation or other members of the 
commission--is that part of what you are talking about in 
response to my question about why not more of an emphasis on 
Learn and Serve America, you jumped to the work-study. That is 
different. I am talking about K through 12 as well as college. 
Work-study at the college level is a whole different concept. 
First of all, people are working in work study. That is what 
they do. That is not the same thing.
    Service learning is sort of a synthesis, as you know, 
between the experience, the community work, and the 
curriculum--do the work, reflect on the work, learn--and it is 
rich. In Minnesota, I am in a school every 2 weeks, and I am 
telling you it is one of the most exciting things that I have 
seen.
    So we can work together on this, but I really want to just 
call on you as we go forward to really put more of an emphasis 
on what has been very successful, and I really do not think the 
work-study model fulfills that need. The President's call for 
citizens to be more involved is fine, too, but that does not 
speak directly to what has been the heart and soul and 
effectiveness of service learning, especially if we are looking 
at our public school system.
    So I really think we have got to do much better than what 
we have here.
    Mr. Lenkowsky. We certainly agree with you, Senator. As I 
said a bit earlier, Federal work-study is one of may things 
that we are doing. We are in active discussion with colleges 
and universities now, not simply about Federal work-study but 
service learning and other areas as well. So we think we are in 
agreement on this, and we will be making further announcements 
and further strides as we go forward, and we certainly look 
forward to working with you.
    We are also very interested in the civics education 
portion----
    Senator Wellstone. That is good.
    Mr. Lenkowsky [continuing]. And without saying a lot, we 
have had some discussions within the umbrella of the Freedom 
Corps, and we can talk a little bit about that, too.
    Senator Wellstone. I think it is terribly important that we 
have good civics education, and everybody learns that they 
should vote Democrat. [Laughter.] I am pushing it hard.
    Mr. Lenkowsky. One of the things I am thinking about 
doing--I would like to see AmeriCorps members have a basic 
reading list that might include things like the Declaration of 
Independence, the Constitution, things we can all agree on that 
really do not create divisions, and read those while you are in 
AmeriCorps.
    As you and I both know from our experience in the 
classroom, a lot of our students have never read the 
Declaration or the Constitution, and we think that if you are 
going to be in AmeriCorps, maybe that is something you should 
read.
    Senator Wellstone. Thank you.
    The Chairman. I want to underscore what Senator Wellstone 
said. Service learning has been at the same appropriation 
level, $43 million, since 1994. I am familiar with the programs 
up in my State, and this is not only the service, but it is 
also challenging teachers to make education more relevant to 
kids in these high schools. It has been working, particularly 
in underserved areas. I can take you to a high school in 
Springfield, MA, which had a high dropout rate, a high rate of 
violence, a high teenage pregnancy rate, and they started an 
aggressive service learning program, and it is now probably the 
number one high school in Springfield, more directly related to 
service learning than anything else.
    It is challenging for the schools. They have to try to 
develop something that is going to be relevant to students. In 
Massachusetts, they measure acid rain in a school that I 
visited recently. They look at the differences in it during 
winter and spring, where it comes from, what are the different 
products, what causes the poison, what is its impact on the 
lakes, which fish are dying, what other water life is dying. 
They have converted that into a science program that is the 
most interesting program, and the kids are flocking to it. It 
gets them out into the communities to start improving their 
environment. They learn about the ponds, they learn about the 
importance of fresh air, they learn about the value of things 
which are relevant to them.
    So we want to make sure these are quality programs, but I 
cannot underline enough that if we have things that are 
working, they ought to be strengthened, but I agree that we are 
starting a lot of other programs around here, and we are 
lectured constantly--not by you, but by others--about how we 
have got to make sure that every Head Start child is able to 
score on three different tests, and how everything has to be 
done so that we are not going to waste resources. So we want to 
make sure that we are finding out what programs are working 
well and follow the administration in supporting those efforts; 
we are interested in opening up, but we want to make sure that 
proven programs that are working effectively are also going to 
be strengthened.
    Mr. Lenkowsky. We agree with you on that. I think one thing 
we know about those habits of the heart is that they start 
young, and if you do not start working on them when they are 
young, it is going to be that much harder to do later on in 
life.
    The Chairman. Senator Mikulski?
    Senator Mikulski. Just to wrap up, because I know there is 
a lot more to this conversation, first of all, I am going to 
ask the administration to really win support for our 
appropriation on the usual and customary National Service and 
AmeriCorps. This has been flat-funded for over 5 years, and 
every year in Appropriations, I have to fight to keep it--and 
quite frankly, it is the other side of the aisle. I am not 
talking about many of my good friends on the other side of the 
aisle. And in the House, they hate the program. Jim Walsh is 
always zeroing it out, only because if it were coming over in 
the appropriation, they would zero it out and put it in another 
program, and we would lose the $400 million. So we need 
support, and we need support in a big way.
    The other thing--and Senator Jeffords and I will work on 
FEMA--I think there is a question of whether Citizen Corps 
needs to be authorized. We have been asked to spend $230 
million for a new program in FEMA, Senator, I think you ought 
to look at the authorizing and give me guidance in terms of 
what you would like, so we can work expeditiously.
    I want to put this $230 million for Citizen Corps into the 
framework of an appropriator. The Fire Grant program is a new 
program over the last 2 years, the goal of which is to help our 
fire fighters pay for the equipment they need, to protect the 
protector, to provide for their personal safety equipment, and 
new types of vehicles and technology. That whole program was 
authorized at $300 million, and I had to forage for the 
funding. Now we are asked to spend $230 million on, quite 
frankly, an ill-defined Citizen Corps including $144 million in 
matching grants to form councils. Well, the volunteer fire 
fighters are going to say, ``Senator Mikulski, you know, we are 
volunteer fire fighters on our own dime and on our own time, 
putting ourselves in the line of fire. Why don't you just put 
this funding into the volunteer fire fighters? We are the 
volunteers.''
    These are the kinds of questions that they raise. I am not 
being prickly about it, but I think there is really a lot to 
sort out here--and I know it is not under your jurisdiction, 
but essentially, it affects the whole climate on service, and 
again, I think we need some sorting out here.
    I am sorry that we are dealing with this in April. We are 
going to be marking up our appropriations bill soon so we need 
to sort out what is in the Finance Committee, and what is this 
Cabinet-level council or agency.
    Mr. Lenkowsky. I know that Mr. Bridgeland is looking 
forward to chatting with you next week when we are scheduled to 
see you and working on that.
    Senator Mikulski. Yes, and we will be working that out.
    Mr. Lenkowsky. On the first point you made, again, the real 
value of being able to work with the White House on this issue 
is that we have had some very productive conversations in the 
other Chamber with people who have been fairly critical in the 
past of what we have done. I would characterize them as 
educational. One of the great things that we do is when you 
actually get beyond----
    Senator Mikulski. Is that a nice phrase? [Laughter.]
    Mr. Lenkowsky [continuing]. You get beyond the rhetoric, 
and you actually go out there and you see Sister Mary Jonas on 
the corner of Stanislaus and Koskiusku in Buffalo, and you see 
VISTAS coming with food so that she can run a food pantry, you 
realize that this is not some Government plot to take over the 
voluntary sector but is actually a way in which we here in 
Washington are working to strengthen the voluntary sector, to 
build good habits of citizenship that will last a lifetime, and 
to help needy people in our communities.
    Whenever I travel, I go to some of the worst parts of every 
town, and I see some of the best people. And what most 
impresses me is that our folks, the folks in the programs that 
you authorize and appropriate funds for, are out there helping 
those people. And the more that people see that, the more they 
are going to support what we do.
    The Chairman. Give us that wonderful quote of yours, Dr. 
Lenkowsky, that you use in your speeches.
    Mr. Lenkowsky. It is what I said--I go to the worst parts 
of all communities, and I see the best people. I went to Little 
Haiti in Miami not long ago, and there, we had some VISTAS 
helping first-time Haitian home owners whose credit histories 
begin in Port au Prince and whose native language is Creole, 
navigating their way through the very complicated forms you 
have to do--and I was doing it at the time myself--to buy or 
sell a house. And our VISTAs were not very far-removed 
socioeconomically from the people they were helping.
    So you really had a win-win; you were building stable 
communities, you were helping needy people, and our VISTAs were 
really getting a sense of what they could do and learning some 
skills. Many of them wanted to go on after their VISTA year and 
get into credit counseling or real estate brokerage or some of 
the other skills. So it is really heartening to see, and I 
think that as people go out there and see what we are really 
doing, some of the preconceptions will drop away.
    The Chairman. We will include in the record at this point a 
statement of Senator Bond, as well as others who may wish to 
submit statements.
    [The prepared statement of Senator Bond follows:]

                   Prepared Statement of Senator Bond

    Thank you, Chairman Kennedy for holding this important 
hearing on the reauthorization of national and community 
service legislation. I also welcome Mr. Les Lenkowsky, the new 
Chief Executive Officer of the Corporation for National and 
Community Service (CNCS). As an appropriator and authorizer of 
the Corporation, I am very interested in this issue. I look 
forward to working with you, Senator Gregg, and my good 
colleague and fellow appropriator Senator Mikulski in 
developing a bi-partisan reauthorization bill for CNCS.
    Along with the Peace Corps, CNCS plays a vital role in 
leading the federal government's involvement in volunteer 
activities. Out of the tragedy of the terrorist attacks of 
September 11th has come a public cry for citizens to become 
involved in public service and help our communities respond to 
the new demands of homeland security. The demand for 
volunteerism is probably at its highest ever as I have 
witnessed in my home State of Missouri. As I have traveled 
across Missouri, I have heard from people in all walks of life 
- senior citizens, college graduates, and high school students 
- who have told me that they want to serve and help their 
neighborhoods. The events of September 11th have generated a 
new spirit of public service, compassion, and responsibility. 
We have a unique opportunity to capture and harness this new 
spirit and in turn, we can improve our communities and 
strengthen the bonds of all Americans in unimaginable ways.
    However, the current structure and programs of the 
Corporation does not lend itself to meet effectively and 
efficiently the volunteer needs of Americans. The Corporation 
is not getting the ``biggest bang for the buck.'' That is why I 
strongly believe that the Corporation's programs need 
fundamental reforms. I believe that it should perform less 
``retail'' activities and focus more on ``wholesale'' 
activities. What do I mean? This means that instead of funding 
and training volunteers directly, the Corporation should fund 
and train organizations that are experienced and equipped to 
train volunteers. In other words, the Corporation should 
``train the trainers'' so that it can expand and widen its 
reach in terms of the number of volunteers it touches today.
    Before closing, I must raise the importance of management 
and accountability. For too long, the Corporation has been 
riddled with inadequate management systems and ineffective 
oversight practices and it has been unable to provide 
performance outcome data on its programs. Unfortunately, the 
Corporation's top management often ignored or minimized the 
importance of management and accountability and as a result, 
the Corporation was unable to meet fully its mission. Further, 
management problems have hurt the Corporation's credibility on 
Capitol Hill and made it an easy target of criticism and budget 
cuts. I cannot emphasize enough how important it is to ensure 
that the Corporation is able to demonstrate that every taxpayer 
dollar is maximized and spent appropriately. As the previous 
Chairman and now Ranking Member of the VA-HUD and Independent 
Agencies Appropriations Subcommittee, I have become intimately 
knowledgeable about the Corporation's long-standing management 
problems.
    I am pleased that the Corporation received a clean opinion 
on its fiscal year 2001 financial statements audit with no 
material weaknesses and I congratulate Mr. Lenkowsky for his 
leadership. However, we cannot afford to back slide from this 
important achievement, especially if the responsibilities and 
functions of the Corporation are expanded as requested by the 
Administration. I hope that the Corporation's leadership 
continues to keep management a top priority.
    Thank you again Chairman Kennedy for holding this hearing. 
I look forward to working on the Corporation's reauthorization 
this year and appreciate your leadership in addressing this 
important issue.
    The Chairman. Thank you very much.
    Senator Jeffords?
    Senator Jeffords. Mr. Chairman, I just want to add that I 
want to make sure we all work together. I am on the Finance 
Committee along with Senator Bond, and certainly, all of us who 
have a say can be better communicated with than we have been 
thus far so we can all work toward making this a very workable 
program.
    The Chairman. Thank you.
    I think you are among friends of volunteerism here, and we 
want to be constructive, and we are positive, and we applaud 
the President's focus on this and admire your own strong 
personal commitment. And we want to make sure that whatever we 
have is going to really work, and we are very eager to work 
with you. I think you will find that you have a very positive 
response from members of the committee to help make some sense 
about some of these concerns.
    Thank you very, very much.
    Mr. Lenkowsky. Thank you, Mr. Chairman.
    The Chairman. The committee stands adjourned.
    [Whereupon, at 11:22 a.m., the committee was adjourned.]


</pre></body></html>
